<html>
<title> - THE OPIOID EPIDEMIC IN APPALACHIA: ADDRESSING HURDLES TO ECONOMIC DEVELOPMENT IN THE REGION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






   THE OPIOID EPIDEMIC IN APPALACHIA: ADDRESSING HURDLES TO ECONOMIC 
                       DEVELOPMENT IN THE REGION

=======================================================================

                                (115-31)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 12, 2017

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-961 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
FRANK A. LoBIONDO, New Jersey        JERROLD NADLER, New York
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
DUNCAN HUNTER, California            ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania                Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                       Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota
                                ------                                

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                  LOU BARLETTA, Pennsylvania, Chairman
ERIC A. ``RICK'' CRAWFORD, Arkansas  HENRY C. ``HANK'' JOHNSON, Jr., 
BARBARA COMSTOCK, Virginia               Georgia
MIKE BOST, Illinois                  ELEANOR HOLMES NORTON, District of 
LLOYD SMUCKER, Pennsylvania              Columbia
JOHN J. FASO, New York               ALBIO SIRES, New Jersey
A. DREW FERGUSON IV, Georgia,        GRACE F. NAPOLITANO, California
  Vice Chair                         MICHAEL E. CAPUANO, Massachusetts
BRIAN J. MAST, Florida               PETER A. DeFAZIO, Oregon (Ex 
BILL SHUSTER, Pennsylvania (Ex           Officio)
    Officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                                Panel 1

Hon. Harold Rogers, a Representative in Congress from the State 
  of Kentucky....................................................     3

                                Panel 2

Hon. Earl Gohl, Federal Cochair, Appalachian Regional Commission.     6
Barry L. Denk, Director, The Center for Rural Pennsylvania.......     6
Nancy Hale, President and Chief Executive Officer, Operation 
  UNITE..........................................................     6
Jonathan P. Novak, Esq., Former Attorney for the Drug Enforcement 
  Administration.................................................     6

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Tom Marino of Pennsylvania..................................    28

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Harold Rogers...............................................    31
Hon. Earl Gohl...................................................    35
Barry L. Denk....................................................    42
Nancy Hale.......................................................    48
Jonathan P. Novak, Esq...........................................    54



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
   THE OPIOID EPIDEMIC IN APPALACHIA: ADDRESSING HURDLES TO ECONOMIC 
                       DEVELOPMENT IN THE REGION

                              ----------                              


                  TUESDAY, TUESDAY, DECEMBER 12, 2017

                  House of Representatives,
      Subcommittee on Economic Development, Public 
               Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
room 2167, Rayburn House Office Building, Hon. Lou Barletta 
(Chairman of the subcommittee) presiding.
    Mr. Barletta. The subcommittee will come to order.
    The purpose of today's hearing is to examine the impact of 
the opioid crisis on economic development in Appalachia. The 
opioid crisis has touched the lives of countless Americans. 
This public health emergency has taken the lives of far too 
many of our Nation's citizens, and has had significant adverse 
effects on our economy and labor force participation. As a 
subcommittee with jurisdiction over a number of economic 
development agencies, including the Appalachian Regional 
Commission, we are specifically focusing today on the ways the 
opioid crisis has affected the Appalachian workforce, and 
efforts to promote economic development in the region.
    The opioid epidemic has profoundly affected all of our 
districts and uprooted the lives of so many of our 
constituents. Ninety-one Americans die every single day of an 
opioid overdose. In my home State of Pennsylvania, 4,642 drug-
related overdose deaths were reported in 2016. In 2015, there 
were 5,594 overdose deaths in Appalachia--a drug-related death 
rate 65 percent higher than the rest of the Nation. Sixty-nine 
percent of those deaths were caused by opioids. An overwhelming 
majority of these deaths throughout Appalachia were individuals 
between the ages of 25 and 44, people who were in their prime 
working years. These troubling statistics makes it clear that 
the opioid crisis is not only destroying lives, it has created 
a significant challenge to workforce expansion and economic 
development throughout Appalachia.
    This crisis is economically disastrous for our Nation. This 
past month, the White House office of economic advisers 
released a report that estimated the opioid epidemic cost our 
Nation $504 billion in 2015. That is an important number to 
remember as we begin today's hearing, because it points to the 
lost potential for economic activity and productivity in 
communities battling opioid addiction. That is our focus here 
today.
    To that end, I remind our witnesses and my fellow Members 
that this subcommittee's jurisdiction is economic development 
programs in the Appalachian Regional Commission. We have no 
oversight of the Department of Justice or the DEA. Our goal is 
to have a hearing that this subcommittee can use to inform our 
committee's decisions regarding agencies within our 
jurisdiction. Therefore, I would ask that all testimony and 
questions be confined to the issues within our jurisdiction. 
Further, I would like to reiterate that today's hearing is 
meant to be bipartisan. The opioid crisis does not recognize 
political parties. I think that we can all agree, Republicans 
and Democrats alike, that the priority here is to finding 
solutions for the communities and the families who are being 
devastated by this epidemic, not playing politics with people's 
lives.
    Just a few days ago, the Transportation and Infrastructure 
Committee showed what it can accomplish when we work in a 
bipartisan fashion. We unanimously approved the Disaster 
Recovery Reform Act because of the good work that was started 
here in this subcommittee. Let's continue to work in that same 
fashion here today to look for solutions within the programs 
and agencies under our jurisdiction.
    It is my hope that today we can come together to examine 
the impact of opioids in Appalachia and the ways in which 
existing Federal economic development programs can help States 
and communities address and combat this growing epidemic. I am 
sure our witnesses today will help us answer those questions. I 
thank you for being here.
    I now recognize the ranking member of this subcommittee, 
Mr. Johnson, for a brief opening statement.
    Mr. Johnson. Thank you, Mr. Chairman. Good morning, and I 
would like to thank Chairman Barletta for holding this very 
important hearing on the opioid epidemic in Appalachia and how 
it is impacting adversely and severely the lives of our 
brothers and sisters in Appalachia.
    Since the formation of the Appalachian Regional Commission 
in 1965, Appalachia has made significant progress in executing 
its mission of addressing persistent poverty and economic 
despair. However, the progress made in attracting industry to 
Appalachia and reducing poverty has been threatened by the 
current opioid epidemic sweeping the Nation.
    According to the Centers for Disease Control and 
Prevention, the CDC, drug overdoses are now a leading cause of 
death in the United States resulting in approximately 52,000 
deaths in 2015. Fifty-two thousand deaths in 2015, or 142 
deaths every day. In Appalachia, the problem is even worse. In 
2009, the mortality rate in the Appalachian region was 24 
percent higher than the non-Appalachian United States. By 2016, 
the mortality rate was 37 percent higher than the rest of the 
Nation.
    The opioid epidemic also happens to strike in the most 
devastating way men and women between the prime working ages of 
25 and 44. Although the mortality rate is lower in the Georgia 
counties in my congressional district covered by the ARC, I 
think there can be important lessons learned for the Southeast 
Crescent Regional Commission, another economic development 
commission that I introduced legislation reauthorizing earlier 
this year.
    This is a full-blown crisis that demands the attention of 
Congress. The high rates of substance abuse and mortality in 
Appalachia compared to the rest of the United States is a 
serious impediment to sustained economic growth. Employers are 
seeking a healthy workforce when making decisions about where 
they will locate their businesses. High rates of substance 
abuse and mortality make it difficult for employers to find and 
hire qualified candidates. The ARC in its mission to promote 
economic development in the region has understood the great 
threat of opioid addiction to the economic viability of the 
region.
    In 2017, the ARC commissioned two reports that clearly 
outlined that men and women of prime working ages are beset 
with high rates of substance abuse and mortality. I support 
ARC's conclusion that increased access to treatment services, 
prevention, and overdose medications to address the opioid 
epidemic are necessary. I am pleased that the approach to the 
opioid epidemic in all of ARC's commissioned reports discuss 
this problem in the context of it being a public health issue 
as much as it is a law enforcement issue. We must not repeat 
the mistakes of the past where drug abuse was overcriminalized 
as it was during the crack cocaine epidemic of the 1980s. The 
Government's response to drugs in the 1980s did not have the 
effect of easing the problem, but instead, only intensified the 
severity of the problem.
    Hopefully, we have learned some things from our past. 
Today, the comprehensive reports and testimony before this 
committee make clear that the genesis and driving force for 
this epidemic starts with the proliferation of prescription 
drugs. I am glad that we will have a former DEA official talk 
about how changes in the law and policy at DEA contributed to 
the explosion in prescription pills in Appalachia. There is no 
silver bullet to solve the opioid epidemic, but I look forward 
to hearing from today's witnesses on how a comprehensive 
multifaceted approach can address this crisis.
    And with that, I yield back.
    Mr. Barletta. Thank you. The Chair now recognizes the 
ranking member of the full committee, Mr. DeFazio.
    Mr. DeFazio. Thanks, Mr. Chairman. I won't delay things 
here. I am here in the hope of hearing from the witnesses 
before I have to leave.
    Thank you.
    Mr. Barletta. OK. I am pleased to welcome on our first 
panel, our colleague, Representative Harold Rogers of Kentucky. 
I ask unanimous consent that our witness' full statement be 
included in the record. Without objection, so ordered.
    For our witness, since your written testimony has been made 
a part of the record, the subcommittee would request that you 
limit your oral testimony to 5 minutes.
    Representative Rogers, you may proceed.

 TESTIMONY OF HON. HAROLD ROGERS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF KENTUCKY

    Mr. Rogers. Thank you, Mr. Chairman. And thank you, members 
of the committee, for holding this hearing and for allowing me 
to be here to introduce a constituent who will be testifying 
immediately after me.
    It is a pleasure to introduce Nancy Hale. She is the 
president and CEO of a group called Operation UNITE. My area 
was impacted most severely at the very outset. It is where this 
epidemic began.
    Mr. Barletta. Excuse me. Can you pull that microphone a 
little bit closer to you?
    Mr. Rogers. Is that OK?
    Mr. Barletta. Yep.
    Mr. Rogers. Unbeknownst to anyone, I am talking 2002 or so, 
the State newspaper had this banner headline saying that 
eastern Kentucky is the painkiller capital of the world. It is 
where OxyContin got its start, in the coalmine fields of east 
Kentucky. I didn't know what to do. This is completely out of 
the blue. No one knew or suspected that this was going on. So I 
called together, over several weekends, people from all walks 
of life, from all professions: preachers, doctors, orators, 
judges, social workers, you name it. And we barnstormed, what 
in the dickens can we do to stem the tide? Kids were dying in 
the hospitals every night.
    And out of that came this organization called UNITE. 
Unlawful Narcotics Investigations, Treatment and Education. 
Holistic three-pronged attack. You can't arrest your way out of 
the problem. You can't treat your way out of the problem alone. 
And you can't educate your way out of it. You got to do all of 
them at the same time, across the board, in every community, 
with everyone involved. And you got to involve the public. So 
the public pressure comes to bear on judges, prosecutors, the 
law enforcement community, the medical community, the education 
system and the like. And so, there are 32 counties in Operation 
UNITE. We had 35 undercover agents that could work in those 32 
counties. So far, they have arrested and convicted some 4,300-
and-so pushers.
    But now with this Operation UNITE program, we have got 
treatment centers. We have got counselors in schools. We have 
got drug courts in every county, every community. And we have 
got law enforcement that is now pushing and pushing and 
pushing.
    So the operation is a success. Is it solving the problem? 
No. We are still going up in drug use. It has shifted a lot 
from prescription pills to heroin laced with fentanyl, meth, 
and other substances. I am sure all of you have the same 
problem in your own districts back home. All of us in Congress 
have been touched, in some way, by opioid abuse. As the flames 
of addiction have fanned across communities small and large, my 
area spanning Kentucky's Appalachian region, the very heart of 
Appalachia, has been acutely impacted.
    While I was first initially skeptical of that newspaper 
story about the widespread abuse of OxyContin, it didn't take 
me long to find out it was true. The overprescription diversion 
of painkillers was wreaking havoc on our small towns. Addiction 
was pervasive and deadly, with overdoses tragically far too 
common. Something had to be done.
    But addressing this issue, the misuse of illegal drugs, was 
far from black and white. And that is how we came by the 
Operation UNITE organization.
    I don't want to steal Nancy's thunder when she testifies in 
a few minutes, but I want to emphasize that this organization 
is the national leader now in combating opioid addiction at the 
regional level. UNITE has taken this holistic model to the 
national stage by hosting and putting on the National 
Prescription Drug Abuse and Heroin Summit, now in its seventh 
year. We will meet again in April in Atlanta. We will have all 
of the agencies there: The DEA, the FBI, Department of Justice. 
Last year, we had the President come. We will have the head of 
the CDC, NIH, DEA, the drug czar, you name it. And I hope a 
number of Members of Congress. The chairman graced us with his 
presence a couple of years ago. And, Mr. Chairman, we want all 
of you back again next April.
    I know today, given the jurisdiction of your subcommittee 
over the Appalachian Regional Commission, you are focused on 
finding solutions in this geographical area which has been a 
bellwether for national trends in the opioid's space.
    Let me state that ARC has been a valued partner. And Mr. 
Gohl answered the call when UNITE asked for support for this 
summit 8 years ago. And, Mr. Gohl, we are grateful for your 
support for the ARC summit, and we would not be where we are 
today without you.
    But I also believe that the opioid epidemic is indelibly 
tied to the future economic development of Appalachia, and that 
ARC could be doing more to help organizations like UNITE tackle 
the challenges associated with substance abuse. UNITE has found 
creative ways to do more with less as funding has become more 
difficult to come by. But I believe, Mr. Chairman, a vision 
without funding is a hallucination. Without additional Federal 
support, UNITE simply cannot maintain the level of service that 
will be necessary to save lives in our region and in 
communities around the country.
    As a long-time appropriator, I understand better than most 
that ARC has a broad mission and limited resources. However, 
one thing is painfully clear. The continuation of our addiction 
crisis and a vibrant Appalachian economy cannot coexist. The 
need for more targeted action is urgent as innocent children 
are left behind in the wake of deadly overdoses, and as more 
employers search for a drug-free workplace, both in Appalachia 
and across the country.
    I think today's hearing, Mr. Chairman, is an important 
first step, and I am grateful that you have made it a priority. 
I stand ready to assist the members of your subcommittee and 
you in any way as we work together to find solutions to this 
crisis.
    So thank you, Mr. Chairman, for allowing me these minutes 
and for your hospitality towards Nancy Hale, who is on the next 
panel.
    Thank you, and I yield back.
    Mr. Barletta. Thank you. Thank you for your testimony. Your 
comments have been very helpful to today's discussion.
    We will now move to our second panel.
    Mr. Barletta. On our second panel, we have the Honorable 
Earl Gohl, Federal Cochair of the Appalachian Regional 
Commission; Mr. Barry L. Denk, director, The Center for Rural 
Pennsylvania; Ms. Nancy Hale, president and chief executive 
officer, Operation UNITE; and Mr. Jonathan P. Novak, former 
attorney for the Drug Enforcement Administration.
    I ask unanimous consent that our witnesses' full statements 
be included in the record. Without objection, so ordered.
    For our witnesses, since your written testimony has been 
made a part of the record, the subcommittee would request that 
you limit your oral testimony to 5 minutes.
    Chairman Gohl, you may proceed.

   TESTIMONY OF HON. EARL GOHL, FEDERAL COCHAIR, APPALACHIAN 
 REGIONAL COMMISSION; BARRY L. DENK, DIRECTOR, THE CENTER FOR 
 RURAL PENNSYLVANIA; NANCY HALE, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, OPERATION UNITE; AND JONATHAN P. NOVAK, ESQ., FORMER 
        ATTORNEY FOR THE DRUG ENFORCEMENT ADMINISTRATION

    Mr. Gohl. Thank you, Mr. Chairman, and members of the 
subcommittee for holding this hearing examining the impact of 
opioids in Appalachia. I also want to acknowledge Congressman 
Rogers whose leadership has challenged us all to look at how 
opioids are holding Appalachia's economy back.
    My name is Earl Gohl. I serve as the Federal Cochair of the 
Appalachian Regional Commission. ARC is a partnership between 
the Governors of the 13 Appalachian States and the Federal 
Government. The Commission was created by Congress to help 
Appalachia achieve socioeconomic parity with the rest of the 
Nation. ARC has a broad mandate to foster and support economic 
growth across the region's 420 counties.
    Mr. Chairman, opioid abuse poses a major threat to the 
economic prosperity of Appalachia. It is not just a public 
health and public safety issue. It is an economic issue. It 
drains the region's resources, both human and financial. It 
shatters Appalachia's families and communities. It would be 
understandable if this scenario led to a narrative of defeat.
    But my narrative, based on 8 years of intensive engagement, 
working with communities, partnering with a variety of groups 
and interests and making hundreds of friendships is not a tale 
of woe. It is, rather, a narrative of proud Americans who are 
resilient, determined, and full of grit. There is an army of 
Appalachians with ambition and hopes who get up every day and 
work incredibly hard to make their communities better places 
for their kids and their grandkids.
    Today, these folks bring energy and innovation and 
determination to many communities. They are focused on the 
challenge of a stronger, new, and diverse local economy. It is 
a story of groups like SOAR in eastern Kentucky, Coalfield 
Development Corporation in West Virginia, the Foundation for 
Appalachian Kentucky, the Pennsylvania Wilds, and the West 
Virginia Hub, the list goes on, who are incredibly focused on 
writing the narrative of Appalachia's future.
    But we also know the studies, the data, the roundtables, 
the focus groups, the discussions, the casual conversations 
with friends and partners make it clear. Opioid addiction is a 
significant barrier preventing Appalachian communities from 
reaching their economic potential. Mayors tell me that 
prospective employers ask about the state of opioid addiction 
in their communities. Law enforcement understands they are 
confronting a disease. Friends and partners, employers will 
pull you aside and say, this is touching every family, with the 
emphasis being on ``every.''
    In 2008, ARC published a research report by the Walsh 
Center for Rural Health Analysis that showed Appalachian 
hospital admission rates for abuse of prescription painkillers 
were more than twice those in the rest of the United States. It 
showed the rate rising, both nationally and regionally, but it 
was rising faster in Appalachia. The ARC study was the first to 
document that Appalachia was being disproportionately harmed by 
the growth of prescription drug abuse.
    This fall, the President released the opioid commission 
report that outlined the challenges of opioid abuse nationwide. 
ARC recently published another study from the Walsh Center that 
described the extent of the opioid challenge in our region. It 
put opioid-related drug abuse in context with two other 
diseases of despair, suicide and alcoholic liver disease, and 
showed that the region's mortality rate for all three combined 
is 37 percent higher than the rest of the Nation. The same 
study also illustrates that the gaps between Appalachian and 
non-Appalachian mortality rates are highest among people in 
their prime working years.
    In 2015, overdose-related mortality rates for Appalachia's 
25-to-44-year-old age group were more than 70 percent higher 
than the same age group in the country's non-Appalachian areas. 
Seventy percent of all the data points. This is the one that 
all of us need to focus on. It is the one that will have the 
greatest impact on the economic growth--economic opportunities 
of the Appalachian region.
    You probably already know that Appalachians are not folks 
who are going to stand by and wait for someone to tell them 
what to do when there is a problem that impacts their families 
and their community. Appalachians recognize that the opioid 
challenge requires everyone's engagement and commitment. They 
understand that ARC can partner with them and--to help them 
take on the region's toughest challenges.
    You will hear from Nancy Hale. The story of UNITE is an 
example of what Appalachian communities can accomplish. ARC is 
very proud to call ourselves a partner of Operation UNITE. We 
have all heard about the heroics of the Huntington, West 
Virginia, city emergency responders who have been on the front 
line of this opioid crisis. ARC is currently supporting the 
work of the Cabell-Huntington Health Department to expand its 
opioid harm reduction services from one site to six, making the 
program available countywide.
    Organizations like FAHE [Federation of Appalachian Housing 
Enterprises] in Kentucky recognize that they can contribute to 
this effort by partnering with service providers to develop 
recovery housing and employment support for individuals. ARC 
has invested $1 million in our POWER [Partnerships for 
Opportunity and Workforce and Economic Revitalization] 
Initiative that targets coal-impacted communities to help FAHE 
establish three treatment and recovery facilities in Kentucky.
    Using the ARC funds, the Center for Rural Health 
Development in Hurricane, West Virginia, is strengthening the 
healthcare industry in a 15-county region by providing business 
development systems to care providers.
    At its core, each one of these examples is about creating 
job opportunities in Appalachia, which is what ARC's core 
mission is.
    ARC believes that supporting the workforce and creating new 
jobs and businesses are strategically important in solving the 
region's opioid crisis. Over the past 5 years, ARC's 
investments have helped create and retain over 100,000 jobs. 
Each of these jobs gives someone hope, a reason to get up every 
day, and make the region a better place for their kids, their 
grandkids, and themselves.
    Mr. Chairman, thanks so much for this opportunity.
    Mr. Barletta. Thank you for your testimony, Chairman Gohl.
    Mr. Denk, you may proceed.
    Mr. Denk. Thank you.
    Good morning, Chairman Barletta, Ranking Member Johnson, 
and members of the House Subcommittee on Economic Development, 
Public Buildings, and Emergency Management. I appreciate the 
opportunity to be with you today. I am Barry Denk, the director 
of The Center for Rural Pennsylvania. The center is a 
bipartisan, bicameral legislative research agency serving the 
Pennsylvania General Assembly. For those who may not know, 
Pennsylvania has the third largest rural population in the 
Nation with 3.5 million rural residents. Rural Pennsylvania 
compromises 75 percent of our Commonwealth's land area.
    The center began sponsoring a series of public hearings in 
July 2014, on the issue of what we now know is the public 
health epidemic of substance use disorder due to heroin and 
opioid addiction. We conducted our 13th hearing just this past 
October of 2017. The Center for Rural Pennsylvania received 
testimony from over 150 professionals totaling over 35 hours, 
all viewable on my chairman's website as well as their written 
testimony. We heard firsthand from the attorney general, from 
police officers, district attorneys, judges, EMS professionals, 
coroners, doctors, superintendents, business leaders, treatment 
providers, Federal and State government officials, and we heard 
from families who have lost loved ones to addiction, and we 
heard from persons in recovery.
    One of the individuals who testified at two of our 
hearings, the most recent being in October of 2017, is the 
president and CEO of the Pennsylvania Chamber of Business and 
Industry. He noted a Princeton economist, Alan Krueger, who 
released a report in September 2017 that analyzed how the 
opioid crisis has contributed to workforce challenges. By 
comparing county level data for opioid prescription rates, and 
labor force data for the periods of 1999 to 2001, and from 2014 
to 2016, Dr. Krueger concluded that opioid prescriptions 
accounted for a 20-percent decline in the workforce 
participation among men, and a 25-percent decline among women.
    The Pennsylvania Chamber of Commerce also commissioned a 
survey of its members in 2016 about their experiences and 
expectations concerning the workforce. Over 400 of the members 
responded to the survey, and they painted a daunting picture. A 
combined 52 percent said it is very, or extremely difficult to 
recruit qualified candidates to fill the workforce needs for 
their companies. Over 61 percent said finding qualified 
applicants has become much more difficult within the past 5 
years, and over 57 percent expect that same situation to play 
out over the next 5 years.
    Over 20 percent of the respondents said the job applicants 
or potential new hirees very often, or somewhat often, failed 
to pass a drug test. He also stated that it is becoming 
increasingly evident that addressing the prescription drug and 
opioid epidemic must be an integral component of any workforce 
development strategy.
    We are also aware of a study that was completed in two 
Appalachian counties in Pennsylvania, namely Allegheny, where 
Pittsburgh is located, and Westmoreland County. The Allegheny 
Institute for Public Policy released its report in May 2017, 
stating that their estimate is that there are 16,000 opioid 
medicine abusers in Allegheny County, and over 5,000 heroin 
abusers/users in Allegheny County coming at a cost for 
healthcare, crime, and lost wages and benefits estimated at 
$472 million for those opioid medicine users and over $350 
million for heroin users.
    For Westmoreland County, the costs were placed at $102 
million for opioids, and $108 million for heroin. We are also 
aware of a study by the National Bureau of Economic Research 
that surveyed 35 Appalachia counties known for a high 
propensity for heroin use. It found that, as unemployment 
increases by 1 percent, there is a 3.6-percent increase in 
opioid-related deaths, and an over 7-percent increase in 
emergency room visits for opioid-related health crises.
    These are just a few examples, given the time today, to 
help document the impact that the heroin and opioid epidemic is 
having on our workforce and our economy in Appalachia, and, 
specifically, in rural Pennsylvania.
    A few closing comments. Specifically, I will provide a 
quote from my chairman, Senator Gene Yaw, who testified before 
the Pennsylvania Senate Health and Human Services Committee in 
May of 2017. And his quote is this: ``Today, 13 Pennsylvanians 
will lose their lives to a drug overdose. This week, over 1,000 
people will die of an overdose in the United States. By 
comparison, the Vietnam War, a period that spanned 10 to 12 
years, claimed more than 56,000 American lives. We are now 
approaching that level of lives lost every year due to drug 
abuse and misuse, and estimates are that these numbers will 
continue to surge.''
    The Center for Rural Pennsylvania since 2014 has been 
investigating this issue. But our work addressing rural 
Pennsylvania and the challenges and opportunities that face 
those residents in those communities dates back to 1987.
    I will leave this final comment with you: While the heroin 
and opioid crisis is an unbelievable impact for our communities 
and our citizens, it is also important to put it in the context 
of much broader challenges that are ongoing and systemic in 
rural Pennsylvania, and, I would offer, in rural Appalachia.
    Two things are constant, regardless of what we are talking 
about: geographic isolation, and lack of density population. 
And that makes it extremely challenging to aggregate, to get 
return on investment, and to provide goods and services that 
can move the economies for rural Pennsylvania.
    One of the maps that I provided for you in my written 
testimony shows the per capita income gap between urban and 
rural Pennsylvania. That gap in 1970 was just under $5,500. 
That income gap, adjusted for inflation in 2015, increased to 
over $12,000, a per capita income gap. That means an awful lot 
of things for how rural Pennsylvania can do a lot of things, 
invest in a lot of programs, whether it is drug treatment or 
whether it is economic development programs. Those are 
constants that remain in rural Pennsylvania and speak to the 
broader picture of some of the challenges, but also, some of 
the opportunities that can turn things around for our 
Commonwealth.
    Chairman, thank you so much for the privilege to be here.
    Mr. Barletta. Thank you for your testimony, Mr. Denk.
    Ms. Hale, you may proceed.
    Ms. Hale. Good morning, Chairman Barletta, Ranking Member 
Johnson, and members of the subcommittee. Thank you for giving 
me the opportunity to speak with you. I am Nancy Hale, 
president and CEO of Operation UNITE.
    UNITE stands for Unlawful Narcotics Investigations, 
Treatment and Education. Operation UNITE was launched in 2003 
by Congressman Hal Rogers, after the Lexington Herald-Leader 
published a report on addiction and corruption. Per capita, we 
were the top painkiller users in the entire world. UNITE 
pioneered a holistic approach that has become a model for other 
States and the Nation. Eastern Kentucky's economy has been hard 
hit by the rising rate of substance abuse among its residents. 
Local employers are losing skilled workers to substance use and 
are unable to find qualified employees who can pass a drug 
test.
    So how is UNITE addressing the problem? UNITE's enforcement 
effort has resulted in the removal of more than $12.3 million 
worth of drugs from the street, 4,400 arrests with a conviction 
rate of more than 97 percent, and nearly 22,000 calls to our 
tip line. But we realize that we cannot arrest our way out of 
this epidemic.
    We staff a statewide treatment line to connect people to 
resources, and have supplied vouchers to help more than 4,000 
people enter long-term rehabilitation. In addition, the number 
of drug court programs has increased from 5 to serving all 32 
counties in our region. But prevention is paramount. UNITE has 
reached more than 100,000 students through our drug education 
programs.
    A National Center for Injury Prevention and Control study 
estimated that prescription opioid abuse cost the economy $78.5 
billion in 2013. That did not include factors like lost 
productivity. We have provided State-certified, drug-free 
workplace training to more than two dozen companies which 
benefit from reduced workers' compensation insurance premiums, 
safer workplaces, increased productivity, and reduced 
absenteeism. UNITE focuses on addiction, the signs of drug use, 
the effects in the workplace, and how to find support services. 
We also help with employee assistance programs. We have 
implemented many evidence-based solutions. The good news is 
that these programs can be replicated. The bad news is they 
require funding.
    You have already heard Congressman Rogers say a vision 
without funding is a hallucination. Operation UNITE received 
Federal appropriations in the early 2000s for enforcement 
efforts. SAMHSA helped provide treatment vouchers. Through our 
AmeriCorps program, students show a more than 50-percent growth 
in math knowledge and drug education knowledge. Our 
achievements would not have been possible without these 
appropriations, many of which are no longer available. We seek 
private and State investments, and continue to explore 
opportunities through the competitive grant process. Our unique 
regional holistic structure does not fit many funding models.
    The Appalachian Regional Commission has been invaluable. 
Please refer to my written testimony for those details. I would 
like to focus today, though, on the National Prescription Drug 
Abuse and Heroin Summit. Congressman Rogers asked UNITE to 
create a summit where stakeholders could collaborate, 
cooperate, and discover data-driven solutions to the epidemic. 
The ARC agreed to serve as educational partner for the first 
summit in 2012. Its investment of $50,000 paid for travel 
expenses for more than 200 leading experts and the ability to 
offer continuing education credits.
    Since inception, attendance has more than tripled, 
attracting nearly 2,400 people in 2017. The Institute for the 
Advancement of Behavioral Healthcare now promotes and stages 
the summit. UNITE remains active as the educational adviser. In 
2016, UNITE received ARC funding for effective sustainable 
social media strategies. UNITE implemented a campaign to raise 
awareness of the summit, and received training from Oak Ridge 
Associated Universities, enabling us to build a strong regional 
presence and increase Facebook followers by 24 percent.
    In 2017, ARC provided funding to share social media best 
practices at the summit; to expand our media presence in the 
Appalachia region; to assist with the CDC's campaign to prevent 
prescription opioid abuse; and, create a strategic plan, a 
sustainability roadmap.
    Unfortunately, many people are unaware of how to replicate 
our initiatives, and UNITE has endured drastic funding cuts. 
UNITE and organizations utilizing our model are desperate for 
Federal support to keep the doors open. We hope we can maintain 
and expand upon our partnership with ARC and other Federal 
agencies. UNITE helps ARC fulfill its mission. And ARC support 
has enabled UNITE to create hope and change the culture, not 
only in southeastern Kentucky or Appalachia, but on a national 
stage. By supporting a national dialogue through the Rx summit, 
ARC is creating positive changes well beyond its service area. 
But we need the ARC to do more. Funding and expansion of our 
drug-free workplace training would help economic development in 
Appalachia. In addition, we need funding to support medical 
symposiums on prescribing addiction, alternative treatments, 
and recovery.
    UNITE looks forward to working with other communities 
across the Nation to address our Nation's opioid epidemic. And 
thank you for giving me the opportunity to share today.
    Mr. Barletta. Thank you for your testimony, Ms. Hale.
    Mr. Novak, you may proceed.
    Mr. Novak. Good morning, and thank you for the honor of 
speaking here today.
    From 2010 through 2015, I had the great honor to serve as 
an attorney for the Drug Enforcement Administration. My work 
was focused almost entirely on enforcement actions against 
doctors, pharmacies, distributors, and manufacturers of opioid 
controlled substances, all registrants under the Controlled 
Substances Act.
    For several years, with an eye on protecting the public 
health and safety, DEA shut down pill mills and practices run 
by greedy, immoral drug dealers in lab coats, all betraying not 
only their duties under the CSA, but their ethical obligations 
to their fellow human beings. I watched as DEA fought hard 
against the rising tide and struggled not to drown as the 
opioid epidemic swelled around us.
    The opioid epidemic was a slow burn fire. Traditionally, 
many opioids used to treat pain included acetaminophen, a drug 
which, if taken long term, caused severe liver damage. So in 
the 1990s, a pharmaceutical company decided to remove the 
acetaminophen and start promoting the use of opioids for long-
term pain management. Their proposal was backed by claims that 
opioid medicines are rarely addictive. Too late. We now know 
that this is not true.
    As these drugs were marketed, the very people selling the 
pills went about changing hearts and minds about the dangers of 
opioids. Soon, opioid phobia was replaced with frowny-faced 
pain measurement and a general misunderstanding by many 
physicians of what exactly they were prescribing. Over the 
course of time, opioid usage was normalized in America and 
heralded as a wonder drug. Opioids were digging in everywhere 
across the country, especially in blue collar and poorer areas, 
where those seeking a prescription felt validated by the fact 
that their drugs came from a doctor and where those seeking a 
buck found incredible profits in sharing their stash. 
Unemployment and disability numbers rose, and the number of 
employable members of the workforce diminished.
    As DEA endeavored to help the people of this country, we 
began broadening our investigations and enforcement actions to 
look at the role of distributors and manufacturers in this 
threat of opioid addiction. Then, for no readily apparent 
reason, DEA began to slow down, not ramp up, its enforcement. 
And DEA became afraid to use its strongest enforcement tool: 
the immediate suspension order.
    The ISO was a tool for immediately halting the shipments of 
opioid controlled substances sent by a distributor to a 
pharmacy. During my time at DEA, it seemed to me that these 
larger pharmaceutical corporations and industries were not 
interested in doing the right thing, at least until their 
profits were hurt and their names were being tied to the opioid 
epidemic in the headlines.
    Soon after, DEA began losing more and more attorneys 
recruited over to represent the industry. When these attorneys 
left for the industry, they brought with them an intense and 
brilliant understanding of DEA regulations and case law. I 
believe this brilliance and understanding, now representing 
some of the largest DEA registrants in the country, was what 
DEA began to fear. This was, to my understanding, what caused 
much of the slowdown in DEA enforcement.
    It was, to my knowledge, a former DEA attorney who drafted 
the Ensuring Patient Access and Effective Drug Enforcement Act 
which stripped DEA of the ISO. While DEA attorneys feared that 
a bad decision in Federal court might strip DEA of the ISO, 
Congress effectively legislated the ISO away, ostensibly in the 
name of ensuring patient access to opioid controlled 
substances. Without the ISO in its tool belt, DEA will likely 
have little effect enforcing regulations against manufacturers, 
distributors, and large pharmacy chains who, in my experience, 
only ever seem to listen when it hurt their bottom line. 
Ensuring patient access is a misleading description painting 
the picture of an altruistic industry only concerned with 
saving lives and easing pain.
    While we may not consider corporations to be people, there 
is simply no such thing as an altruistic corporation. And by 
limiting DEA's ability to enforce its regulation and the CSA 
against these pharmaceutical corporations, we have effectively 
condoned the poisoning of our populous, and ushered in the loss 
of an entire generation to highly addictive and deadly drugs.
    According to the CDC, 80 percent of heroin users in America 
today got their start on opioid painkillers. Overdose deaths in 
America are at an all-time high, making the heroin epidemic of 
the 1970s and the cocaine epidemic of the 1980s look tiny in 
comparison. We are killing our own people, and DEA is falling 
down on the job. This is an epidemic that focuses on no race, 
no gender, no socioeconomic classification, because it affects 
them all.
    Everyone has a story of a loved one injured on the job now 
living a life of addiction, pain management, and unemployment, 
because their doctor kept increasing their prescribed dosage, 
or of a student injured in a high school football game 
prescribed opioids by a well-intentioned physician, and now in 
jail for possession of heroin or dead of an accidental 
overdose.
    Significant damage has been done not only to those who now 
are addicts, but to our communities, our workforces, and our 
economies. Old methods of treatment are failing in the face of 
this long-term physical and biological addiction. And yet, 
these pills seem easier and easier to find and harder and 
harder to avoid. We need to focus on changing the laws, 
restoring DEA's ability to enforce, and looking at funding to 
educate our population, and to help those already addicted to 
fully recover and become productive members of our society 
again. We need to focus on local law enforcement and legal 
actions by States and counties. All of this starts with 
effective enforcement to shut off the overflow of opioids into 
our communities.
    And thank you very much for this opportunity today.
    Mr. Barletta. Thank you for your testimony, Mr. Novak.
    I will now begin the first round of questions limited to 5 
minutes for each Member. If there are additional questions 
following the first round, we will have additional rounds of 
questions as needed.
    Mr. Denk, The Center for Rural Pennsylvania has done a lot 
of work for the Pennsylvania General Assembly. It seems the 
impact of the opioid crisis on the workforce is significant.
    From the information the center has gathered, can you 
highlight how opioid abuse has created barriers for attracting 
jobs? And how will the general assembly use the information you 
have collected to address this issue?
    Mr. Denk. We have heard from a number of testifiers, 
particularly those in recovery, where prior felony convictions 
still linger for them, not just in employment opportunities, 
but with regard to housing itself. And so I know my boss, 
Senator Gene Yaw, is looking at that issue.
    There is concern that those felonies, while committed 
because somebody was addicted to a substance, need to be looked 
at. And at some point in time, maybe that can be removed from 
their record.
    We heard from one young individual in Greensburg, 
Pennsylvania. Started the path into drugs at age 13 because of 
her home environment. And she eventually went to heroin. She 
committed two felonies by the age of 20. That woman turned her 
life around completely. She now has a master's degree, and she 
now works for the Allegheny Health Network as an addictions 
counselor, helping individuals. Those two felony convictions 
still linger on her record. And she has been turned down for 
housing because she reports, yes, I have been convicted of two 
felonies.
    So we have heard that. We have heard from employers, 
particularly in the gas industry, which is important to 
Pennsylvania's economy with the drilling, of individuals who 
fail to pass some drug tests. We heard at one of our hearings 
in Williamsport where the local single county authority, the 
agency that provides treatment services, they are meeting with 
employers and developing a list of employers who are willing to 
give a second chance to an individual who may have had a 
substance use disorder, may have had some kind of criminal 
activity as a result of that.
    We also heard from a number of judges about the effects of 
drug courts and how helpful they are, and somebody who has 
committed a crime but needs to turn their life around. And so 
we are looking to expand drug courts across the Commonwealth.
    Currently, out of 67 counties, only 38 drug courts exist in 
those counties. There are a number of things that are being 
looked at to further document the question that you raise and 
take a look at from a legislative standpoint as to what might 
be done.
    Mr. Barletta. Thank you.
    Ms. Hale, Operation UNITE has done a lot in eastern 
Kentucky and has become a resource for other communities.
    What types of programs have you found to be the most 
impactful in addressing the opioid crisis? And are there models 
that other States like Pennsylvania can use?
    Ms. Hale. I think our education prevention programs have 
had the greatest impact. We have seen and heard anecdotal 
evidence from some of our summer interns who were students in 
college share that, on their college campus in attending frat 
parties and sorority parties, where there, unfortunately, is a 
great deal of alcohol and drugs being used at the parties, the 
students have noted that there are a number of students who do 
not engage in those activities, and then they begin noting that 
those students were from eastern Kentucky, and have grown up 
for the last 10 to 12 years hearing about substance abuse, 
being trained in making healthy choices and things such as 
that. We are seeing an impact on that generation.
    Also, we are seeing an impact in our program in working 
with the administrative office of the courts through our drug 
court programs. We are learning that drug courts do work. There 
are many people who are in recovery who make excellent 
employees because of what they have endured, what they now 
understand, the structure that has been brought into their 
lives through the drug court programmings.
    Education and prevention. We have a mobile prevention unit 
that we target 7th and 10th graders. That has had a huge 
impact. The University of Kentucky compiles the data from the 
pre- and post-surveys with that program. We also have programs 
that we are taking into the elementary schools where we are 
introducing young people at an early age to the dangers, the 
harms, preparing them with knowledge, helping them make healthy 
decisions, even as early as third grade.
    And then, of course, our AmeriCorps program. We have 54 
AmeriCorps members serving in 13 counties in our district. And 
those AmeriCorps members work primarily on math tutoring. But 
they also are introducing a Too Good for Drugs curriculum that 
impacts the parents, the staff, and the community in prevention 
initiatives.
    Mr. Barletta. Thank you.
    The Chair now recognizes Mr. Johnson for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Denk, you have testified that alcohol and drug 
treatment funding has been cut by 25 percent, while requests 
for service have quadrupled since 2014.
    Mr. Denk. Yes, sir.
    Mr. Johnson. Have you identified either Federal or State 
funds that could reverse those cuts in future fiscal years?
    Mr. Denk. That testimony came from one of the single county 
authority directors, who specifically gave those statistics. 
There is hope that at the Federal level, there might be some 
funds that would be earmarked, additional funds that would be 
made available. The CURE's [Commonwealth Universal Research 
Enhancement program] grant. Pennsylvania received about $26.5 
million under the CURE's grant from the Federal Government to 
deal with drug addiction and treatment services. Also, the 
Pennsylvania General Assembly, our budgets are extremely 
strapped, but I know there is interest in looking at expanding 
treatment options. There was over $30 million provided in the 
State budget to set up what we are calling Centers of 
Excellence around the Commonwealth. So there has been new money 
provided at the Federal and State levels to support treatment 
programs.
    Mr. Johnson. Well, are you fearful that the passage of the 
tax cut bill that is pending before Congress now will have an 
adverse impact on the ability of the Federal Government to fund 
these grants that have been insufficient in the past?
    Mr. Denk. I really can't speak to that, sir, quite 
honestly, in terms of not knowing all the details of the tax 
cut bill. I think, you know, priorities need to be made in 
terms of what works best for the Nation as a whole. But, quite 
honestly, I have not looked at the specifics of the tax cut 
bill.
    Mr. Johnson. Well, let me ask you this question.
    Mr. Denk. Sure.
    Mr. Johnson. Do you anticipate that future healthcare cuts 
based on changes in Federal healthcare laws and regulations, 
such as the repeal of the Affordable Care Act, also known as 
Obamacare, do you think that that could have an impact on the 
ability of those seeking treatment to get drug treatment?
    Mr. Denk. If funds are cut serving Medicaid-eligible 
individuals who are in need of drug treatment, then there will 
be challenges that present themselves for those individuals. We 
have found community foundations and others stepping up to the 
plate and helping out in terms of providing services for 
indigent individuals. Time will see as to what impacts at the 
Federal level that filter down to the State play out for those 
audiences, sir.
    Mr. Johnson. Well, thank you.
    Ms. Hale, in your testimony, you state that the second 
pillar of addressing the opioid epidemic is treatment.
    Has the Affordable Care Act, also known as Obamacare, 
affected the ability of residents of Kentucky to get treatment 
for drug addiction?
    Ms. Hale. Has it affected the ability? I probably can't 
address that properly.
    Mr. Johnson. Let me ask it this way then: Have there been 
opportunities for people to get treatment in Kentucky for drug 
abuse and drug addiction, because they had access to the 
healthcare system through the Affordable Care Act, and the 
State's expansion of Medicaid under the Affordable Care Act?
    Ms. Hale. There have been opportunities, I am sure, that 
that has resulted. One of the things that UNITE did before is, 
in providing the vouchers for people who did not qualify, did 
not have private insurance or Medicaid, to enter long-term 
rehabilitation.
    Mr. Johnson. Well, do you worry that a withdrawal of 
Federal resources from social services can adversely impact the 
ability of people to get treatment for drug abuse in Kentucky?
    Ms. Hale. I think our communities are rallying, our State 
is rallying around to fit those needs. What I would be 
concerned about is if the system could handle all of that.
    Mr. Johnson. I know it is a political football, but we got 
to get away from politics and start looking at how we help 
people, and whether or not Federal policies are helping.
    Now, Mr. Novak, what is the historic role of the DEA in 
stopping the flow of suspicious drug shipments in Appalachia?
    Mr. Novak. Historically, that was exactly the purview of 
what DEA was doing nationwide. Appalachia was especially hard 
hit. And, you know, the problem is the suspicious orders are to 
be monitored and reported by registrants. DEA has historically 
been, you know, reactive, not proactive, because there are 
suspicious orders going into West Virginia, in a town of 925 
people, that is getting 9 million oxycodone pills, and that is 
not reported to DEA. DEA then finds out about things like that, 
and can go in and try to shut them down.
    But, you know, that is exactly what DEA relies on in 
putting together its cases and trying to have a registrant, 
like a distributor or a manufacturer, monitor what is going 
out. Unfortunately, historically, we found that they weren't 
and they were just pushing orders of that size into regions 
with no concern whether or not that order was suspicious.
    Mr. Johnson. Thank you. My time has expired.
    Mr. Barletta. Again, just a reminder that our committee's 
jurisdiction is not a healthcare policy or DEA enforcement. We 
want to find solutions that we can act on as this committee.
    The Chair now recognizes Mr. Mast for 5 minutes.
    Mr. Mast. I want to thank you for the time, Mr. Chairman.
    This epidemic is something that greatly affects my region 
in Florida, as well as it does many other areas of the country. 
I have three beautiful children. I literally couldn't imagine 
this being something that affects my family. I have a very good 
old military friend of mine I speak to reasonably often, and he 
lost his son. So it is something that touches close to home for 
me.
    I just want to ask a couple of questions quickly, just a 
little bit of fact-based questions here. What are the quantity 
of opioids that are obtained legally versus those that are 
obtained illegally that are relating to whether an overdose or 
an overdose resulting in death? What are the statistics that we 
are looking at comparatively, whoever can answer that?
    Mr. Novak. I can at least start with that. The problem that 
we are seeing in this epidemic is that you can't get the pills, 
for the most part--every pill that is getting out on the street 
was prescribed by a doctor, filled by a pharmacy.
    The problem is the people who are overdosing aren't just 
people abusing. The directions for taking your oxycodone, it is 
not a one-size-fits-all. Addiction can be caused as quickly as 
after a 10-day program of opioids. There is a 20-percent chance 
you are addicted a year later.
    The overdoses are happening, not just from abuse, but from 
standard use, because I don't believe that our medical 
community is nearly as informed about the dangers of these or 
the potential for overdoses as they need to be.
    Mr. Mast. Certainly. But do you have a number saying this 
is how many opioid deaths or overdoses that were treated that 
are as a result of somebody that filled the prescription that 
was assigned to them, or somebody that purchased it secondhand 
from somebody else? That is what I am asking.
    Mr. Denk. Sir, I am not aware that that information is 
available in Pennsylvania.
    One of the challenges would be is, who collects that data. 
If it is stolen medication or taken out of a house, whether law 
enforcement gathers that information, the county coroner upon 
autopsy or a hospital, there could be a number of organizations 
involved in dealing with that death from an overdose. And, so, 
the data analytics on that is challenging to get.
    I have one statistic for you, but it doesn't distinguish 
your specific question. This is from the U.S. Drug Enforcement 
Administration in a report in July of 2017 for Pennsylvania.
    ``In 2016, the presence of an opioid, either illicit or 
prescribed by a doctor, was identified in 85 percent of drug-
related overdose deaths.'' So whether it is illicit or actually 
prescribed, opioids are still a major, major player, obviously, 
in overdose deaths in Pennsylvania.
    Mr. Mast. Very good. Thank you for your response.
    What is the most commonly used opioid for overdose? Is it 
methadone? Oxycodone? Hydrocodone? Fentanyl? What ranks as the 
number one drug within this epidemic, or number two. You can 
give me a couple.
    Mr. Denk. In Pennsylvania, it is a mix. Oxycodone. But we 
are seeing because of Pennsylvania now has in force for a 
couple years, our prescription drug monitoring program, which 
is cutting back dramatically on opioid prescriptions out on the 
streets, illicit or otherwise. The presence of fentanyl, 
increasing deaths in Pennsylvania due to fentanyl.
    Mr. Mast. So are you saying that filled the gap that was 
created by enforcement elsewhere?
    Mr. Denk. I am not sure that it filled the gap. I think 
those that are in the drug-dealing business can make more money 
by mixing fentanyl into their heroin. The person who uses it 
has no idea of the purity of that heroin. And that, because of 
the PDMP [Prescription Drug Monitoring Program] being in place 
and controlling opioids, it was predicted that we would see a 
rise in heroin use and overdose deaths. But now with the influx 
of fentanyl, what we are seeing is a major cause of overdose 
deaths now in certain counties.
    Mr. Mast. Thank you for your responses. This is undoubtedly 
something that we all need to find the absolute best way to 
work together on this across the States, across the Federal 
Government, across every locality to combat this.
    I thank you for your responses, and I yield back, Mr. 
Chairman.
    Mr. Barletta. Thank you. I ask unanimous consent that 
members not on the subcommittee be permitted to sit with the 
subcommittee at today's hearing and ask questions.
    The Chair now recognizes Ms. Norton for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I thank you for calling this hearing. Of course, it focuses 
on Appalachia. We know that opioids are a problem throughout 
the United States. It is interesting how drugs tend to find 
their favorite places, and the link between opioids and heroin 
and how that is playing out. But this is particularly 
bothersome, because we find opioids here in Appalachia where 
there is, to begin with, poor education, low income, often 
rural areas, the last place that needs this kind of epidemic. 
It is really heartbreaking. Opioids, of course, the difference 
between opioids and heroin is that ain't nobody prescribes 
heroin. Initially, opioids are prescribed and then they become 
a kind of rogue drug.
    What interested me was to note that the Chamber of Commerce 
in Pennsylvania has seen a link between employability and the 
skills gap and this opioid crisis. And I am wondering, in light 
of a survey that has been cited to us, for example, that 
businesses find that over 20 percent of applicants, or their 
potential new hires, often fail a drug test.
    So I am interested, Mr. Denk, in what your legislature is 
doing, given what appears to be an effect on the economy itself 
and on getting people who might otherwise be employed a job.
    Mr. Denk. There has been no legislation with regard to the 
issue of the business and industry with employers in terms of 
their right to issue, you know, drug tests on individuals. 
That----
    Ms. Norton. I understand their right, but they are having 
to do it because they suspect so many of those who are applying 
for jobs have been caught up in this crisis. And I wonder if 
the legislature has found any way to address this problem of 
employability with an ultimate effect on your economy----
    Mr. Denk. Sure.
    Ms. Norton [continuing]. In Pennsylvania.
    Mr. Denk. Ma'am, no short-term answers. No quick fixes. I 
think it has been recognized, certainly from the public 
hearings that we have held across the Commonwealth, education 
on prevention, and education starting at the lowest levels. And 
we heard this from the UNITE program. That has been seen as the 
long-term fix in this long-term crisis.
    Ms. Norton. So if people are better educated, or they are 
not caught up in this opioid crisis, and they can pass the drug 
test, and it is basically poor people that are involved. If it 
is a question of education, is the link between education and 
employability such that you can get a hold of these people once 
you try to get them off of the drug and deal with the education 
problem at the same time?
    Mr. Denk. Yes, ma'am. Pennsylvania implements what is 
called a PAYS study. Pennsylvania Youth Survey. It is done 
every year. And that measures attitudes, behaviors, influences 
of youth in 6th and 10th and 12th grades.
    We are seeing individuals coming from family members where 
parents are approving marijuana use. They would rather them do 
that, or they would rather them drink in the home as opposed to 
going outside. So with this whole education, it is getting in 
early and changing attitudes and behaviors and mindsets. It is 
going to be a long-term solution.
    Ms. Norton. I want to ask this before my time runs out.
    Mr. Denk. I am sorry.
    Ms. Norton. I appreciate that answer. I want to ask Mr. 
Novak a question. Because I am wondering, why this problem has 
grounded itself in areas like Appalachia, whether or not the 
DEA had a role in stopping this kind of entrenchment at any 
time, and when did it become so entrenched, and why did it 
become so entrenched in an area like this?
    Mr. Novak. First of all----
    Ms. Norton. I want to know all I can to keep it from 
becoming entrenched in the big cities.
    Mr. Novak. And, you know, what we are seeing now is it is 
becoming entrenched everywhere, or rather, it has become 
entrenched everywhere. It is a problem that we didn't recognize 
until it was far too late. Poor areas or isolated areas, they 
found a market for these kinds of drugs, because they seem to 
be valid because a doctor is prescribing you. And if a doctor 
is prescribing it, it must be good for you. But it is also, you 
know, that almost gave people a pass. ``Well, I am not abusing, 
I am just using what my doctor prescribed to me for my pain 
management.''
    DEA, again, you need to look at the fact that there are 
divisions around the country and the larger an area and the 
bigger the population and the more funding that that division 
has, you know, the more proactive they could be. And 
unfortunately, some of the worst problems I saw at DEA were 
cases coming out of areas that nobody cared about until it was 
too late.
    I know Florida, for instance, got hit devastatingly with 
all of this, but it was always in the smaller towns, a little 
farther away. You know, it wasn't Miami, it was Oviedo. And 
that is where this all took route. It took route with the 
populous that, you know, could get these drugs for much cheaper 
at the time, and then felt validated in using them. Again, it 
is staggering how addictive these things are, and 2 months of 
being on an opioid, suddenly you are addicted. And it just 
escalates and escalates.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Barletta. Thank you. The chairman now recognizes Mr. 
Faso for 5 minutes.
    Mr. Faso. Thank you, Mr. Chairman. I appreciate the 
witnesses being here today on this topic.
    I am wondering, Ms. Hale, if you could tell us what you 
think it would take to replicate the type of program that you 
are operating in Kentucky around the country, and what kind of 
funding streams have you been able to--you or others--been able 
to postulate? Maybe even Mr. Denk may have some ideas in that 
regard as well.
    Ms. Hale. To replicate the holistic approach that Operation 
UNITE, when we first began, when Congressman Rogers launched 
the program, we had Federal grants from the Department of 
Justice working, starting out with about $12 million and in 
receiving other grants, you know, like our AmeriCorps grant, 
funding from ARC, that sort of thing.
    Mr. Faso. So, in other words, you would cobble together, 
whether they were specific appropriations that Mr. Rogers was 
able to secure, or specific funding streams from other 
agencies, cobble that together to run your program?
    Ms. Hale. Correct. The State support that we receive now 
allows us to keep our doors open somewhat. One of the things 
that we have done is developed community coalitions within 
every one of our 32 counties. These are people in that county 
who are volunteers who serve. They have their own nonprofit 
status, and they are working to secure grants and funding. We 
have several drug-free community grants in our area that we are 
working with those areas as well.
    Mr. Faso. So I guess our task is to find out how we can 
maybe combine some existing Federal funding streams together 
with perhaps some new efforts in order to attempt to replicate 
these efforts around the country.
    You had mentioned that you had also been able to fund 
vouchers, you said, I think, 4,000 vouchers, for people to get 
substance abuse treatment. I guess that would be short- and/or 
long-term.
    Ms. Hale. No, sir, we only fund long-term treatment.
    Mr. Faso. Long-term. And so where did you get the money for 
that?
    Ms. Hale. Starting out, that money came from SAMHSA. The 
Commonwealth of Kentucky supports that. We use the proceeds 
from the National Prescription Drug Summit. We also had a lot 
of buy-in from businesses and organizations, such as Kentucky 
River Properties gave us $500,000, because they understood the 
need for helping their employees who were suffering from 
substance abuse, get into long-term treatment.
    Mr. Faso. Yeah, I would think, in line with what you just 
said, that it would be important for us to try to not just 
simply let people think that there is one source of funding for 
this from Washington, but combining sources from States, 
localities, but also the private sector. Because I think that 
if everyone has some skin in the game--Mr. Denk, did you have 
something to add in that regard?
    Mr. Denk. Not on the scale of Operation UNITE, but there is 
an entity in Williamsport, Pennsylvania, called Project Bald 
Eagle. Similar concepts, doing a lot in the area of prevention 
and education, nothing in the area of treatment.
    Their core funding came from higher education, the 
healthcare system and the Chamber of Commerce. They all kicked 
in $25,000 apiece to jump start what's called Project Bald 
Eagle. So I think there is local money to be had. There is 
community foundation funding. I think as long as there is a 
solid game plan, local investment can occur, and certainly, if 
that can be piggybacked and parlayed with other moneys, 
Federal, State, I think you get a greater return on investment.
    The investment, as has been demonstrated, must be owned at 
the local level.
    Mr. Faso. Yes. And I think that is a very important point 
that you just made.
    Now back to you, Ms. Hale. Again, you mentioned that you 
conduct drug-free workplace training that is a State-certified 
training, I think you said. How prevalent is that among the 
States? Do all 50 States have such programs or is this unique 
to your area?
    Ms. Hale. I don't know if all the other States have that 
program. It has been unique to our area in Appalachia, simply 
because before UNITE, we weren't aware of any drug-free 
workplace training that was taking place.
    Mr. Faso. Thank you. I think, Mr. Chairman, the fact is 
that we are seeing, right now, among the lowest workforce 
participation rates of able-bodied people between 18 and 65. 
And this, in line with what the Pennsylvania study suggested, 
is really a prevalent problem that exists all across the 
country.
    In my district, I have counties that have under 60 percent 
workforce participation rates of people between 18 and 65, and 
I think opioid and drug abuse is a major part of that. And I 
appreciate your convening this hearing, and I appreciate the 
witnesses being here today on this topic. And I yield back.
    Mr. Barletta. The Chair recognizes Mr. Smucker for 5 
minutes.
    Mr. Smucker. Thank you, Mr. Chairman, for the time. I 
appreciate it.
    Mr. Denk, thank you for your testimony. Welcome to 
Washington, DC.
    Mr. Denk. Thank you. My pleasure.
    Mr. Smucker. It is great to see you.
    Mr. Denk. Thank you.
    Mr. Smucker. As you know, I am also from Pennsylvania, 
served in the legislature and State senate for 8 years, and so 
I am familiar with the work of your organization. You have been 
a tremendous resource to the legislature in Pennsylvania. And, 
Senator Yaw, the chairman, is a good friend. In fact, I sat 
next to him in our caucus for much of the time that I spent 
there, so really great to hear from you.
    Mr. Denk. Thank you.
    Mr. Smucker. Senator Yaw, I know, and your organization did 
a lot of work, hearings all across the State, really bringing 
an awareness to this issue a number of years ago when you 
started the work that was so valuable to all of us. And we have 
had a lot of conversations in caucus in the State senate in 
regards to how we can respond. And, you know, just the 
magnitude of this is hard to imagine at times. And just 
repeating what you said in your testimony, 4,642 Pennsylvanians 
died in 2016 as a result of a drug overdose with thousands more 
affected by addiction, either personally or through family, 
friends, coworkers, employees or neighbors. That was an 
increase of 37 percent from 2015 when, as you mentioned, 13 
people died each day of a drug-related overdose.
    Just specifically, my area in 2016, my district includes 
portions of three counties, Lancaster averaged 22.3 deaths per 
100,000 people; Chester County averaged 19.4; and Bucks County, 
28.4 overdose deaths per 100,000 people. It is just absolutely 
devastating to our communities.
    One of the takeaways that I always heard from Senator Yaw, 
and you mentioned here this morning, is there are no simple 
short-term solutions. In fact, there is no silver bullet here 
to solve this. And, you know, we think it can be solved but it 
will take a number of solutions, a broad range of solutions, 
from enforcement to treatment to--you mentioned drug courts, 
which have been particularly effective in my area.
    We did a number of pieces of legislation at the State level 
as a result of the hearings that you have done. One of those 
you mentioned was a prescription drug monitoring program. And 
as with any new program there was pushback. It, of course, was 
additional work for every party, you know, including medical 
doctors, pharmacies and all. But I am curious, how well do you 
think it is working, and are there ways that we should improve 
a program of that type?
    Mr. Denk. Thank you. The office of the PDMP is right next 
door to my office, so I do meet with them on a regular basis. 
It is working in Pennsylvania. I don't have the figure in front 
of me, but I know that the director has talked on numerous 
occasions about the thousands of pounds of opioids that have 
been stopped because of the PDMP and the doc shopping that was 
occurring. And so that has been critical.
    There is interest in revisiting the prescription drug 
monitoring program to tighten it up a little bit. We had one 
doctor who oversees a residency program, and he would like 
language that allows someone to query the querier, kind of a 
checks and balance as to who is checking into the system and 
using it, that type of thing. Some comments that we have heard 
that dentists should be required to subscribe to that. Dentists 
prescribe opioids. And from a medical standpoint, often opioids 
are not what is needed to deal with pain from a dental 
procedure.
    So there is interest in reopening it. As you know so well, 
you open any piece of legislation, and it is ripe for a lot of 
other things to be taken a look at.
    Mr. Smucker. And sorry to cut you off, but I am running 
close to the end of my time.
    I am curious, from your perspective, what is it that we 
could do at the Federal level to help? What would be your 
number 1, number 2 things that we should be--specific actions 
that we can do to help communities combat this?
    Mr. Denk. The public face of this epidemic, I think the 
Federal Government can play an even greater role in recognizing 
that it is an epidemic affecting all segments of our society, 
and has direct impact on the economy, on infrastructure, you 
name it.
    I think a much stronger face and getting Federal agencies, 
and I see this in Pennsylvania, and State agencies, to really 
work together. Unfortunately there is still too much siloing in 
our work to address this epidemic.
    Mr. Smucker. Thank you. Mr. Chairman, I have additional 
questions. Do you want me to wait for the second round?
    Mr. Barletta. Yeah, sure.
    Mr. Smucker. Thank you.
    Mr. Barletta. I will now recognize each Member for an 
additional 5 minutes of questions.
    Mr. Gohl, the ARC is a Federal economic development agency. 
How did the problem of opioids get on your radar, and do you 
think ARC's programs are good templates for other Federal 
economic development agencies, such as the EDA, and if so, how?
    Mr. Gohl. Thank you, Mr. Chairman. I think that, a couple 
things. In our work within the region, this clearly became an 
issue within several communities.
    And you know, part of the work of Operation UNITE has a 
little bit of magic about it, because it is not just the money, 
but it is the leadership, and the long-term leadership. And the 
effort and the work that Congressman Rogers has put into 
growing Operation UNITE is a lot of the reason for its success 
and its recognition.
    And not every community has a Harold Rogers to be there all 
the time pushing, pushing, pushing, challenging people like me. 
And that is an important part of it. So, you know, giving money 
to folks is one thing, but having leadership pays huge 
dividends.
    In terms of our experience, in one of the research projects 
that we did back in 2008, the data showed that Appalachia was 
leading the Nation in the hospitalization as a result of 
prescription drugs. And that really was a surprise to us. That 
really got our attention. In working and talking with 
Congressman Rogers and his staff around an agenda, we got to a 
point of developing and working with Operation UNITE to do a 
national prescription drug abuse summit and to take a role in 
terms of education--the extended education--as our contribution 
to the summit.
    And I think that really, for us, put us in a position where 
we weren't just supporting a conference, but we were supporting 
education and the development and strengthening of the 
workforce. That is where we felt pretty comfortable. And 
clearly, as you look at our plans and look at our strategies, 
developing and strengthening the workforce is a critical area 
of our work.
    The other thing I would say is that we currently have a 
partnership with NIDA, the National Institute on Drug Abuse, 
where we, with CDC and a couple agencies--but NIDA is really 
the lead--are working in five different communities, or five 
different initiatives around the region to focus on community-
based solutions to treatment and prevention of substance abuse.
    And we are very hopeful that that evidence-based work would 
really provide some direction and some really strong guidance 
for going forward.
    Mr. Barletta. And what would help ARC's work on opioids be 
more effective?
    Mr. Gohl. You know, I would say that a seat at the table is 
probably the most effective thing that works in this town, that 
when ARC is part of the discussion, or ARC is part of the 
development and ARC is part of hearings like this, it makes 
sure that the rural voice is heard. And oftentimes, I think you 
just heard one of the witnesses talk about that nobody really 
knew. Well, it is collecting data and making sure that the 
rural communities are part of the discussion is often the 
biggest part of the challenge. And so, it is hearings like 
this; it is being a part of initiatives and work, not only in 
the Appalachian region, but to partner with other folks who are 
doing work outside the region is very helpful. I think that our 
partnerships with CDC, and NIDA in particular, over the last 
few years, has given us, not only resources, but it has also 
given us a place and a voice to raise the issues of Appalachia 
and the challenges that we have.
    Mr. Barletta. And what is the role of ARC in helping to 
address the opioid problem?
    Mr. Gohl. I think we have several roles. I think that it is 
important for us to work with our State partners who really are 
the agenda setters for the Commission in terms of investment of 
dollars, to work with them and make sure that the issue of 
opioids in the workforce and how it affects communities is a 
challenge that they focus on and that they use the resources to 
invest in.
    I think that we need to continue to work around community 
organizations and being able to empower them and give them the 
tools. I think it is important for us to invest in initiatives 
like NIDA as a way of really getting to strategies that work. 
There is no reason to invest in strategies that don't work.
    I think part of the ongoing effort right now is around 
social media, and how do you use social media as part of this? 
Social media just consumes us all, and it is a way of 
communicating. It is a way to share challenges and issues. And 
I think as you go forward, we are going to learn more about 
effective strategies for how do we communicate. Groups like 
Operation UNITE can engage their communities. It is not just a 
matter of ``just say no.'' It is really a matter of these are 
the reasons, these are the challenges we face, and to be able 
to drill down and get people to understand the challenges and 
the dangers that they are facing.
    And I think one of the other issues that we really need to 
focus on is making sure that people understand that this is a 
disease and that we need to treat it like a disease. And, you 
know, this country has faced a lot of diseases over the years 
with polio, or small pox, or the flu, or HIV/AIDS, and we 
defeated each one of those. And the challenge is to look at the 
history and look at what has worked in the past and how do we 
move forward to make sure that we defeat this disease as well.
    Mr. Barletta. Thank you. The Chair now recognizes Mr. 
Johnson for 5 minutes.
    Mr. Johnson. Thank you. Mr. Gohl, given the Appalachian 
Regional Commission's efforts to address the opioid epidemic in 
Appalachia, if the President's fiscal year 2018 budget 
recommendation to eliminate the ARC were affirmed by Congress, 
what other Federal agency would be able to meet the needs of 
Appalachia?
    So in other words, if the Appalachian Regional Commission 
ceases to exist, as is called for under President Trump's 2018 
budget, what would be the effect on Appalachia, and on the drug 
epidemic that ravages America and Appalachia?
    Mr. Gohl. You know, ARC over the last number of years has 
been very focused on creating opportunities, changing the level 
of education, working, you know, very deliberately for the 
region to be on parity with the rest of the Nation in terms of 
socioeconomic----
    Mr. Johnson. Well, let me ask you the question this way. I 
really want to get a yes or no, a quick answer.
    Will the defunding and the removal of the Appalachian 
Regional Commission from the Federal budget, that would hurt 
Appalachia, wouldn't it? Yes or no?
    Mr. Gohl. Mr. Johnson, I have a great deal of respect for 
you, and I appreciate your work----
    Mr. Johnson. And I really just want to get--I am not trying 
to be political. I am just making a point. I think it is a fair 
point. Because what we do up here, the Federal policies that we 
enact up here have an impact back at home, back on the streets. 
People pay taxes, people deserve a fair deal. When they pay in, 
they should get a return on it.
    So when we start talking about giving tax cuts to wealthy 
individuals, multinational corporations and the like, it has an 
impact on people on the street who are paying taxes. And when 
we have a proposal to eliminate the Appalachian Regional 
Commission because we are spending too much money and the 
Federal Government has to cut its deficit and debt, so we 
sacrifice the Appalachian Regional Commission because we want 
to give tax cuts to the wealthy. I mean, that is a fair point, 
I think, for me to make and for me to ask you. And I am just 
asking you what the impact of that policy would be on the 
Appalachian region? And this is what I was talking about in 
terms of us being honest and not playing politics, and let us 
really look at the impact of our policies on how it affects 
people in Appalachia. That is the only thing I am trying to do.
    And I know that you don't want to answer the question. It 
is hard to--the truth hurts. And that is the bottom line.
    Mr. Gohl. Sir, I would say this: Every year we release a 
document that talks about what we did. And the document talks 
about the number of folks we educate, the number of jobs we 
help folks create, and if ARC isn't here, we are not going to 
issue that report any longer.
    But in all fairness, Mr. Johnson, the support that was 
vocalized in March of this year by a bipartisan group of 
Members about ARC, which was really very impressive, and what 
we did was we got to work on doing our jobs, of taking the 
funds that the Congress provided us, and worked diligently 
every day to focus in on our work and what Congress told us to 
do.
    Mr. Johnson. Well, if those funds went away, it would hurt 
the people of Appalachia, who I really feel for, suffering and 
pain and no hope about the future. And I believe that there is 
something that the Federal Government can do, should do, and 
must do in order to help the people of Appalachia and the 
people throughout this country who are suffering and looking 
for a better deal from their Government. And with that, I will 
yield back.
    Mr. Barletta. The Chair recognizes Mr. Smucker for 5 
minutes.
    Mr. Smucker. Thank you, Mr. Chair.
    Ms. Hale, impressive program, it sounds like, in your 
community. For the benefit of our communities who are 
interested in similar initiatives, how important were the 
coalitions that you built within the community, and who should 
be at the table for that?
    Ms. Hale. The coalitions are really the foundation of 
Operation UNITE. Those people within those communities from all 
sectors, whether it is education, law enforcement, treatment, 
faith-based. Every one of them lives in those communities, they 
understand the problems and they are looking for the solutions 
themselves. They are the ones who are motivated to work within 
their communities. They are the ones who are motivated to look 
for sources of funding and not depend totally on the Federal 
Government. However, the Federal Government has done things, 
just like CARA has brought a renewed sense of hope into our 
Commonwealth. We are looking at programs that will allow us to 
be more proactive rather than, as Mr. Novak said, you know, we 
have had to react for so long.
    And so those coalitions are the grassroots of what we are 
doing in Operation UNITE, and throughout the Commonwealth.
    Mr. Smucker. How do you measure success? And maybe talk a 
little bit about how success for your program has been. What 
are some of your key performance indicators, if you will?
    Ms. Hale. Well, one of the ways that we measure success is 
taking, for example, the vouchers that we have provided to over 
4,000 residents, and looking at the followup, coming back, you 
know, when they are coming out of long-term recovery, moving 
back into their communities. UNITE follows that with looking at 
how we can support them, how can we work with our 
administrative office and the courts to help them find jobs, to 
build the economy.
    The University of Kentucky is helping us collect data on 
each one of our programs to show the success. Some of our 
success has been anecdotal, but then, we are looking at 
developing those programs, our educational programs that we can 
use, evidence-based, we are using evidence-based programs to 
find those solutions.
    Mr. Smucker. I will ask the same question I asked Mr. Denk. 
What is it that we could be doing at the Federal level to 
better help? I know funding is one. Is there anything else?
    Ms. Hale. I think looking at programs that will be 
proactive. One of those that Kentucky is looking at this year 
with our legislators is developing an essential skills bill. We 
are working with the Kentucky Chamber of Commerce, our business 
and industry, and our education system to develop K through 12, 
helping young people develop those skills that they are going 
to need for them to be effective members of the workforce. And 
included in that essential skills bill is going to be a huge 
prevention component in educating them on how to be drug free.
    Mr. Smucker. Thank you. It sounds like you are doing great 
work. I really appreciate all of you taking the time to share 
with us the good things that are happening in your communities.
    Mr. Barletta. Thank you. I ask unanimous consent to enter 
into the record a statement of Congressman Tom Marino. Without 
objection, so ordered.

    [The statement of Congressman Tom Marino is on pages 28-30.]

    Mr. Barletta. Thank you all for your testimony. If there 
are no further questions, I would ask unanimous consent that 
the record of today's hearing remain open until such time as 
our witnesses have provided answers to any questions that may 
be submitted to them in writing, and unanimous consent that the 
record remain open for 15 days for any additional comments and 
information submitted by Members or witnesses to be included in 
the record of today's hearing.
    Without objection, so ordered.
    I would like to thank our witnesses again for their 
testimony today. If no other Members have anything to add, the 
subcommittee stands adjourned.
    [Whereupon, at 11:36 a.m., the subcommittee was adjourned.]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
                         [all]
    
                                    
</pre></body></html>
